OIG Investigative Reports, Pulaski County Inmate Charged with Submitting False Claims for Financial Aid While in Prison
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
UNITED STATES ATTORNEY'S OFFICE
WESTERN DISTRICT OF VIRGINIA
FOR IMMEDIATE RELEASE
May 8, 2006
United States Attorney
John L. Brownlee
BB&T Building
310 1st Street, S.W., Room 906
Roanoke, Virginia 24011
Contact:
Heidi Coy
Public Affairs Specialist
Tel: (540) 857-2250
Fax: 540) 857-2180
Pulaski County Inmate Charged with Submitting False Claims for Financial Aid While in Prison
United States Attorney John L. Brownlee announced today that Jason P. Justus,
age 32, an inmate in Pulaski County, Virginia, was indicted by a federal Grand
Jury sitting in Roanoke, Virginia.
Justus was charged in a two count indictment with conspiracy to submit false
claims and making false statements.
According to the indictment, Justus was incarcerated in the Pulaski Correctional
Unit. Beginning in July 2003, Jason Justus, along with his mother, Karen Justus,
and his sister, Joy Justus, developed a scheme to defraud the Department of
Education and the Internal Revenue Service by filing false income tax returns
and applications for education assistance. The conspirators used the names of
real people who were not owed tax refunds nor qualified to receive student aid,
some of whom were incarcerated in the Pulaski Correctional Unit. Justus, his
mother and sister, submitted the false tax returns and applications for student
aid electronically.
"Financial aid is made available to college students so that any hardworking
person has the opportunity to get an education. Mr. Justus took advantage of
this service and took money away from others who are honestly and diligently
trying to better themselves through education," said United States Attorney
John Brownlee.
According to the indictment, between January 2003 and June 2005, Jason Justus
submitted and caused to be submitted false Federal Tax Returns that resulted
in the issuance of 30 tax refund checks totaling over $68,000.
Between July 2003 and April 2005, Justus submitted and caused to be submitted
applications for financial assistance for the attendance at Ivy Tech State College
and Owens State Community College. Those fraudulent applications resulted in
the payment of $110,227.00 from the Department of Education to people who were
not enrolled in programs at these colleges.
The Grand Jury has charged that on July 29, 2003, an electronic FAFSA was submitted
to the Department of Education to fund the attendance of Jason P. Justus at
Ivy Tech for the 2003-2004 school year. The FAFSA was submitted while Justus
was incarcerated at Pulaski Correctional Unit, which does not provide inmates
with internet access or educational furloughs. Because of the information Justus
submitted, Justus was awarded a Pell Grant in the amount of $3,900 and federal
student loans in the amount of $6,625.00.
On October 16, 2004, Karen Justus informed her brother, Jason Justus, who was
incarcerated at the time, that he "...was doing pretty good in school."
On November 21, 2004, Karen Justus called Jason P. Justus at Pulaski Correctional
Facility and said "I think I forgot to take a test for you."
On September 18, 2001, Jason Justus made false statements to representatives
of the Department of Education, saying he had no knowledge of the filing of
false federal income tax returns using the inmate information he provided to
Karen Justus and Joy Justus.
If convicted on all counts, the maximum penalty faced by the defendant is 15
years imprisonment and/or a fine of $500,000.
The investigation of the case was conducted by the Internal Revenue Service
and the Department of Education. Assistant United States Attorney C. Patrick
Hogeboom will prosecute the case.
A Grand Jury indictment is only a charge and not evidence of guilt. The defendant
is entitled to a fair trial with the burden on the government to prove guilt
beyond a reasonable doubt.
Top
Printable view
Share this page
Last Modified: 09/11/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov